NO. 2017-870

IN THE
SUPREME COURT OF THE UNITED STATES

Theresa S. Romain dba Alternative Homecare CO.
AKA Theresa Romain
Petitioner
VS
United States of America (Individual and Incapacity all et al),
Andrew M. Cuomo (Governor N.Y. State), Letitia James (Attorney General N.
Y.) Hon. Thomas A. Breslin, Hon. Michael V. Coccoma, Hon. Karen K. Peters,
Justice Randall T. Eng, Hon. Maria G. Rosa, Clinton G. Johnson Esq. Hon.
Kimberly 0' Connor et al, Wells Fargo et al, Wilmington Saving Fund
Society et al, Rusk walden & Martuscello et al, United Parcel Services (UPS)
et al, Microsoft Corporation et al, Google LLC et al, Gross Polowy LLC et al,
Knuckles Komosinski & Manfro et al, Straight Talk et al, John Doe et al, Jane
Doe et al.
Respondents
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT FROM
THE APPEAL COURT FOR THE STATE OF NEW YORK

PETITION FOR CERTIORARI

Theresa Romain
P. 0 . Box 392

Marlboro NY 12542

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

Theresa S. Romain dba Alternative Homecare CO.
AKA Theresa Romain
Petitioner
VS
United States of America (Individual and Incapacity all et al),
Andrew M. Cuomo (Governor N.Y. State), Letitia James (Attorney General N.
Y.) Hon. Thomas A. Breslin, Hon. Michael V. Coccoma, Hon. Karen K. Peters,
Justice Randall T. Eng, Hon. Maria G. Rosa, Clinton G. Johnson Esq. Hon.
Kimberly 0' Connor et al, Wells Fargo et al, Wilmington Saving Fund
Society et al, Rusk walden & Martuscello et al, United Parcel Services (UPS)
et al, Microsoft Corporation et al, Google LLC et al, Gross Polowy LLC et al,
Knuckles Komosinski & Manfro et al, Straight Talk et al, John Doe et al, Jane
Doe et al.
Respondents
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT FROM
THE APPEAL COURT FOR THE STATE OF NEW YORK

PETITION FOR REHEARING

Theresa Romain
P. 0 . Box 392

Marlboro NY 12542

NO

IN THE SUPREME COURT OF THE UNITED STATES

Theresa S. Romain dba Alternative Homecare CO.
AKA Theresa Romain
Petitioner
VS
United States of America (Individual and Incapacity all et al),
Andrew M. Cuomo (Governor N.Y. State), Letitia James (Attorney General N. Y.)
Hon. Thomas A. Breslin, Hon. Michael V. Coccoma, Hon. Karen K. Peters, Justice
Randall T. Eng, Hon. Maria G. Rosa, Clinton G. Johnson Esq. Hon. Kimberly 0'
Cohnor et al, Wells Fargo et al, Wilmington Saving Fund Society et al, Rusk
Walden & Martuscello et al, United Parcel Services (UPS) et al, Microsoft
Corporation et al, Google LLC et al, Gross Polowy LLC et al, Knuckles Komosinski
& Manfro et al, Straight Talk et al, John Doe et al, Jane Doe et al.
Respondents

ON WRIT OF CERTIORARI ON APPEAL
FROM THE APPEALS COURT FOR
THE STATE OF NEW YORK

PETITION ON REHEARING

Theresa Romain
P.O. Box 392
Marlboro NY 12542

Question Presented

1.

Whether a State Court can foreclose its door to a
litigant on the premise of race, color and national
origin?
Whether an Appellate Court acting as a trial court
procedural and evidentiary ruling constituted an
abuse of discretion requiring reversal of judgment?
Whether State Courts dismissing claim 42
U. S. C. 1983, alleging that State attorney
general, court administrative officials,
under color of State law sought relief that
would deprive rights under Federal and
State law?
Whether the Fourteenth Amendment under the
United State Constitution is an affirmative
guarantee or least restrictive promissory warranty
with a breach of contract?

(i)

PARTIES TO THE PROCEEDING:
All Parties do not appear in the caption of the
case on the cover page who are the subject of
this petition are as follows:
United State by (Attorney General United States)
Andrew M. Cuomo ( Governor State of New York)
Letitia James (Attorney General New York) NY
Hon. Thomas A. Breslin,(Chief Administrative Judge) NY State.
Hon. Michael V. Coccoma(Former Deputy Chief Admin.Judge) NY
Hon. Karen K. Peters, (Former Justice Appellate 3rd Dept) NY
Justice Randall T. Eng (Former justice Appellate 2nd Dept) NY
Hon. Maria G. Rosa,(Dutchess Supreme Court, Poughkeepsie) NY
Clinton G. Johnson Esq (Ulster County Attorney) NY
Hon. Kimberly O'Connor (Supreme Court Justice Albany NY
Eric T. Schneiderman (Former Att. General State of New York),
• Hon. Lisa M. Fisher Ulster County Supreme Court NY.
Hon. Henry F. Zwack (Former Supreme Court Justice NY.
•
Hon. Christopher E. Cahill (Ulster County Supreme Court)
•
Wells Fargo Bank
Wilmington Savings fund Society(Bank Wilmington Del
Christina Trust/ BCAT 2015-13BTT( Sub of Wilmington Bank)
•
Mark R. Knuckles Esq.
Jean Strickland Esq. (Solicitor General NY)
John G. Rusk Esq.(Law Firm Rusk, Martuscello et al)
•
Zainab Chaudhry Esq. (Solicitor General NY)

RESPONDENTS ON STATE COURT CAPTION:
HON. KIMBERLY O'CONNOR (original and individual capacity)
MICHAEL IAPOCE Esq. (Commissioner DSS NY)
CAROL PRESSMAN Esq.(Appellate Division 3' Department)
RACHAEL L.COVELL Esq.(Wapner Koplovitz & Futerfas PLLC)
TRAVIS DAVIS RN ( RN Sole Proprietor)
PATRICIA JELACIC Esq.(Former Commissioner DSS)
CATHERINE CHARUK Esq.(Sole Propritor Kingston NY)
DEBORAH GREENFIELD (Supervisor Case Worker Albany NY)
RICHARD PICHI (Supervisor Case Worker Albany NY)
SUZANNE BOTTIGLIERO (Former Case Worker Supervisor
Kingston NY)
WINNIE MC NELIS ( Former Case Worker DSS Kingston NY)
PATRICIA SANGI (Former Case Worker DSS Kingston NY)
MELINDA ROBINSON (Case Worker DSS Kingston NY)
ROBYN RANDZIN (Former Case worker DSS Kingston NY)
DANIEL MARTUSCELLO Esq.(Law Firm Rusk, Martuscello et al)
DEPARTMENT OF SOCIAL SERVICE (DSS) Via Michael Iapoce
JOINT APPENDIX FOR EACH PARTY:
United Staes by (Attorney General)
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington DC 20530-0001
Andrew M. Cuomo (Governor New York State)
NYS State Capitol Building
Al bany, NY. 12224
518- 474- 8390

Letitia James (Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
Hon. Thomas A. Breslin(Chief Administrative Judge NY State)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Hon. Michael V. Coccoma ( Former Administrative Judge NY State)
Supreme Court Chambers
Ostego County Office Bld.
197 main Street,Cooperstown NY. 13326
607-322-3165
Hon. Karen K. Peters (Commissioner on Justice for Minority)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Justice Randall T. Eng (Former Supreme Court Judge 2nd Dept.)
990 Stewart Ave, Garden City NY 11530
516-741-6565
Maria G. Rosa (Supreme Court judge Poughkeepsie NY)
10 Market street, Poughkeepsie NY 12601
Clinton G. Johnson Esq. (Ulster County Attorney Kingston NY)
P.O.Box 1800, Kingston, NY 12402
Zainab A. Chaudhry Esq.(Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
For:
HON. KIMBERLY O'CONNOR
CAROL PRESSMAN Esq.(Appellate Division 3rd Department)
Jean L. Strickland Esq.(Attorney General State of New York)
One civic Center Plaza, suit 401
Poughkeepsie, NY 12601
For
DEBORAH GREENFIELD (Case Worker)
(iv)

RICHARD PICHI (Case worker)

Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.0
85 Main Street
CIO P.O Box 3939
Kingston NY.12402 845-943-2498
For
MICHAEL IAPOCE Esq.
•
PATRICIA JELACIC Esq.
SUZANNE BOTTIGLIERO (Former Supervisor Case Worker)
MELINDA ROBINSON (Case Worker)
ROBYN RANDZIN (Former Case Worker)
WINNIE MC NELIS (Former Case Worker)
PATRICIA SANGI (Former Case Worker)
Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100
For:
RACHEL COVELL Esq.
•
CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775
Goldberg Segalla LLP
11 Martine Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400
For:

(v)

DANIEL MARTUSCELLO Esq.

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road
Pine Bush, NY. 12566 845-744-5113
Department of Social Services (DSS) by Michael lapoce (Commissioner)
Wells Fargo Home Mortgage by Charlie Scharf (CEO) et al
Head Quaters
420 Montgomery Street
San Francisco, California 94104
Wilmington Savings Fund Society et al
CIO Selene Finance
9990 Richmond Ave
Houston, TX. 77042
John Rusk Esq. (Law Firm Sole Propritor, Rusk, Martuscello)
(Un represented)
255 Fair Street
Kingston, NY 12401 845-331-4100
United Parcel Service (UPS) et al
Cooperate Office, 55 Glenlake Pk Way N.E.
Atlanta GA. 30328
Microsoft Corporation et al by Satya Nadella (CEO)
One Microsoft Way, Redmond W.A. 98052
Google LLC et al
Cooperate Head quaters C/O Alphabet Inc.
1600 Amphitheatre PK Way
Mountain View CA. 94043
Gross Polowy LLC et al by Sarah K. Hyman Esq/B. Biodonde Esq.
1775 Wherle Drive Suite 100
Williamsville NY 14221
Knuckles Komoisinski & Manfro LLP
565 Taxer Road Suite 590
Elmsforde New YorK 10523 Attn: Mark Knuckles/
Maxium Semelyanski Esq.
(vi)

Straight Talk Inc
9700 N. W. 112th Ave
Miami FL 33178
Attn. Executive Resolution
Department

COURT JUDGMENT TO BE REVIEWED:
Hon. Henry F. Zwack (Supreme Court Justice)
Hon. Christopher E. Cahill
Hon. Lisa M. Fisher (Ulster County Court Foeclosure)
Hon. Michael Kraiza (Justice Court Marlboro)

CASES IN OTHER COURTS THAT ARE RELATED:
Theresa Romain v. John L. Decker(Commissioner DSS
(Article 78) 3/11/98)
Theresa Romain v Catherine Charuk Esq. Index No. 05-0944
(2006-2007) RJI 55005-00409
Theresa Romain v Catherine Charuk Esq. (2007) Littman
Krooks LLP For Romain.File No. 23724
Department of Social Service v. Theresa Romain Index
No. 08-6430 (2009) (RJI No. 55-08-0286)
Theresa Romain v. Department of Social Service
(by Michael Iapocee/Commissioner) Index No. 08-5612
(12/16/2008) RJI 55-08-02160
Federal Bankruptcy Court RE: Theresa Romain Case
No. 13-36786 (2013)
Wells fargo v. Theresa Romain Index No. 15-1301( 2015)
RJI 55-15-01101
Wells fargo v. Theresa Romain Index No. 1675 (2009)
Wilmington Saving Fund Society v. Theresa Romain
Index No. 1301 (2015)
Key Bank v. Theresa Romain (2009 & 2017)
RBS Citizen NA v. Theresa S. Romain d/b/a
Alternative Homecare Index No. 09- 1979.
(vii)

TABLE OF CONTENTS:
Opinion Below

1

Jurisdiction

2

Constitution and Statutory Provision Involved

2

Statement of the Case

3-5

Reason for Granting the Rehearing

5-9

Conclusion

10

Statement of Counsel

11

INDEX TO APPENDICES:
Appendix A.

Decision of State Court of Appeals

Appendix B.

Decision of State Appellate Court

Appendix C.

Copy of Order Denying Rehearing

Appendix D

An Extension Time to File Writ of Certiorari

Appendix E

Covid 19 Pandemic

Appendix F

Filing Under Presedence

TABLE OF AUTHORITIES CITED:
Cases

Page No.

Carlisle v. U. S. 517 U. S. 416, 451 (1996)

7

E. G. Fla. N. Rodrique 461 U. S. 940 (1983)

6

Estelle v. McGuire 112 S. Ct (1991)

6

Foster v. Tex _ U. S. _ 131 S Ct 1848 (2011)

7

Gordeck 382 U. S. 25, Ohio Power 353 U. S. at 99...10
Jackson v. Virginia (1979) 443 U. S. 307
(viii)

6

Lambert, Nathaniel v. Louisianallo. 19-8149

5

McGirt v. Oklahoma 591 U. S. 2020

5

Meyer v. Nebraska 262 U. S. 390, 399 (1923)

8

Morales v. County of Nassau (1996)

7

Monroe v. Pape, 365 U.S. 167 (1961)

3

Pham, Tony H. Et al v. Ragbir Ravidath et al

4

Place W. Weinberger 426 U. S. 932 (1976)

6

Ohio-Power 353 U. S. 98

7

Pp 365 U. S. 174-180 (c)

4

Pp 183 (d)

4

Ramos v. Louisiana 590 U. S. 2020

5

Ruffin Jermaine v. Louisiana No. 19-8337

5

Schware v. Board of Bar Examiners 353 U. S. (1957)

9

Straight v. Wainwright 476 U. S. (1986)

10

U. S. v. Johnson 457 U. S. 537 555-56 (1982)

10

Uzuegbunam v. Wilkinson No. 19-968 March 4. 2021

4

Van Vlack v. Baker 1997 2d Dept

8

Weed v. Bilbrey 400 U. S. 982, 984 (1970)

10

Willett v. Lockhart 37 F. 3D 1265 (8th Cir. 1994)

6

Wilson, Gary W. v. Oklahoma No. 19-8126

4

94 N. Y. 2D at 224-25 70 N. Y. S. 2D at 759

8

Place W. Weinberger 426 U. S. 932 (1976)

4

Schware v.Board of Bar
Examiners of N.M., 353 U.S. 232, 238-239 (1957)

7

Travelers Ins Co. v. Ferco Inc 122 AD 2d 718 (18t Dept
1986)

2

U. S. v. Johnson 457 U. S. 537 ,555- 56 (1982

5

Weed v. Bilbrey 400 U. S. 982 984 (1970)

5

Willett v. Lockhart 37 F 3d 1265, 1272 -73 (8th Cir. 1994)

4

Van Vlack v. Baker 1997 2d 2d Dept)

6

94 N. Y. 2d at 224-25 70 N. Y

6

STATUTES AND RULES:
Covid -19

3

Article 16

6

Avoiding the (1944)

3

CPLR 1602

7

CPLR 1602 NO. 10

7

General Obligation Law 11- 100

8

RCVP 60 (b)

10

Section 1983

3

Sup Ct. R. 44.2

3

4th Amendment

3

14th Amendment

3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR REHEARING FOR CERTIORARI
Petitioner respectfully prays that a rehearing be issue to review
the judgment below:
OPINIONS BELOW

[X] For cases from State Courts:
The opinion of the highest state court to review the merits appears at Appendix
to the petition and is
A
[X] reported at New York State Reporting Bureau ;
The opinion of the Appellate Division 3' Department court
B
to the petition and is
Appears at Appendix
[X ] reported at 2017 N. Y. Slip OP 92363 ; or
[ ] has been designated for publication but is not yet reported; or
[ ] is unpublished.
JURISDICTION:
The Jurisdiction of this court is invoked under 28 U.S.0 1257( a).
[X] For cases from State Court:
The date on which the highest state court, decided my
Case was November 16th 2017
A copy of that decision appears at Appendix
A
[X] An extension of time to file the petition for a writ
of certiorari was granted to and including 2/6/2018
(date) on 3/29/2018 (date) in application
No. 2017_870

1.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED:

Due Process under the Fourteenth Amendment
Eight Amendment
Sixth Amendment
Fifth Amendment
Fourth Amendant
First Amendment
PETITION FOR REHEARING:

Pursuant to Rule 44.2, based on controlling case law of a substantial
nature not previously presented and the COVID- 19 factor,
Theresa Romain (Petitioner) respectfully petition for rehearing on
the courts order upholding statute for the above writ and petitions.

PETITION FOR REHEARING:
Pursuant to Rule 44.2, based on controlling case law
of a substantial nature not previously presented and
the COVID- 19 factor, Theresa Romain (Petitioner)
respectfully petition for rehearing on the courts order
upholding statute for the above writ and petitions.

STATEMENT OF THE CASE:
Petitioner's case concerns Congress's ability to
confer delegation to the State Court, the power
to interpret section 1983 cases applying pre and
post deprivation remedies based upon the rule
of law.
The application of the equal protection of the
law not to a chosen few but upon application to
all. And the Attorney General to decide whether
individuals convicted of crimes against
humanity, whether they are subject to criminal
penalties for violating the law. Petitioner suffers
unconstitutional harm some which are
irreparable in nature.

In Monroe v. Pape, 365 U.S. 167 (1961) (b)
one of the purposes of the legislation was to
afford a Federal right in Federal courts
because by reason of prejudice, passion, neglect,
intolerence, or otherwise, state law might not
be enforced and the claims of citizen to the
enjoyment of rights, privleges and immunities
guaranteed by the Fourteenth Amendment
3

might be denied by state agencies. See Pp.
365 U.S. 174-180 (c). The Federal remedy is
supplementary of the state remedy, and the
state remedy need not be sought and refused
before the Federal remedy is invoked. P. 365
U.S. 183 (d) (misuse of power by virtue of
state law).

A case in controversey requiring sound
intepetation and due deligence fom the court
to strike proper balance between the conflicting
pinciples, reviewable only upon rehearing.

Decision in Matters of Constitutional Law
The Supreme Court over Ruling in Matters of
Presedents: 2020- 2021

In Uzuegbunam v. Wilkinson march 4, 2021
The Supreme on the preservation of the First
Amendment (free speech law suit) awarded
norminal fee although the rehearing was dismissed.

In a highly publicized case involving gay rights
the Supreme Court stand its ground and exercised the
protection clause.

In Pham, Tony H. et al v. Ragbir Ravidath 1. et al
No. 19-1046 writ of Certiorari granted

In Wilson, Gary W. v. Oklahoma No. 19-8126
4

leave to proceed in forma pauperis and writ of
Certiorari granted in light of McGirt v. Oklahoma
591 U. S. _(2020)

In Ruffin Jermaine v. Louisiana No. 19-8337
Leave to proceed in forma pauperis and petition
for Writ of certiorari granted in light of Ramos v.
Louisiana 590 U. S.

(2020)

Lambert, Nathaniel v. Lousiana No. 19-8149
Leave to proceed in forma pauperis and petition
for Writ of certiorari granted.

REASON FOR GRANTING THE REHEARING:
The court has decided the case based on an issue
not proposed or briefed by either party.

There are fundamental errors analysis and
procedural default by the court and there is a
reasonable possibility of a cure by means of
a rehearing petition.
An issue of prejudice and a Federal Constitutional
aspect of petitioner's argument was ignored.
Petitioner's case was not decided on "independent
and adequate Federal procedural grounds.
The case requires state wide issues of law or a
split of authorities will occur within the court's
system. The Supreme Court decides issues of
state wide importance.

5

The issue is one that would be vexing to the
court. One in which the controversy is not
frivolous but contrarious.

CASE LAW PRINCIPLES ON REHEARING:
Review —worthy issues that are within conflict from
state courts are settled by the Supreme court of the
United States grounded on Federal Constitution.
See Jackson v. Virginia (1979) 443 U. S. 307 and
Estelle v. McGuire 112 S. Ct.(1991).

Willett v. Lockhart 37 F. 3d 1265, 1272 -73
(8th Cir. 1994) Sup Ct. R. 44.2 (stating that a
petition for rehearing should assert "intervening
Circumstances of a substantial or controlling
effect ... or other substantial grounds not
previously presented.
Other instances of Rehearing/Consideration:
Lincolnshire IL ET AL v. INT Union Local 399
Section 1. Equal Protection of the law.
In E.G Fla. N. Rodrique 461 U. S. 940 (1983)
Granting on May 23 1983 rehearing of a denial
of Certiorari dated May 26 1981.
Place W. Weinberger 426 U. S. 932 (1976)
granted on June 14, 1976 rehearing of a
denial of Certiorari dated Nov. 25,1974.

In Foster v. Tex _U. S. _ 131 S Ct 1848
6

(2011), Ohio- Power 353 U. S. 98, Carlisle
v. U. S. 517 U. S. 416, 451 (1996) Stevens
& Kennedy JJ dissenting (On rear occasions ...
we have held that the interest in the evenhanded administration of justice over weighs
the interest in finality and granted petition
for rehearing).

HARM SANCTION BY CPLR1602
Effective October 1, 2005
Legislative History:
"Mc Kinney's Consolidated Laws of
New York Annotated Civil Practice
And Rule.
In Morales V. County of Nassau (1999)
94 2d 218 703 NY S 2d 61 724 N. E.
2d 756. The Court of Appeals rejected
the notion that courts may create
additional non legislative exceptions to
the operation of Article 16. In the trial
of Morales a Judge made exception to
Article 16 in case against Municipalities
for the negligent enforcement of orders of
protection . The Judge acknowledge that
New York State strong public policy
encouraging the enforcement of orders of
protection.
The court of Appeals refused to engraft
another exception onto CPLR 1602 based
7

on such policy upon reviewing the Legislative
history of Article 16. The court concluded that
statute represented a "careful balance" of
competing interests that took account of all
_e_xceptions_deems__ appropriate-by the Legislature The court therefore stood by the standard canon
of construction "esnressio unisest exclusion alterus"
of special exemptions indicates an exclusion of all
other. Also where the Legislature has indicated its
policy preferences, courts should not superimpose
their own See 94 N. Y. 2d at 224-25 70 N. Y. S 2d
at 64 724 N. K 2d at 759, Van Vlack v. Baker
1997 2d 2d Dept) (nothing the absence of any
exception for social host liability in CPLR 1602.
The Appellate Division said "it was improper for
the court to determine that CPLR 1601 did not
apply on the ground that the policies underlying
the enactment of general obligation Law 11- 100
outweighed the policies underlying the
subsequent enactment of CPLR articlel6".
FAILURE TO PROTECT:
The Legislature had fair warning , was equipped
with knowledge that the court were refusing to follow
protocol and had not done enough to protect Theresa
from harm. The equal protection clause is statured in
the 14th Amendment to state to protect. The due process
of the law was not afforded to Theresa in state court.
See Meyer v. Nebraska, 262 U.S. 390, 399, (1923) that
the liberty guaranteed by the Fourteenth Amendment,
8

Schware v.Board of Bar Examiners of N. M., 353 U. S.
232, 238-239 (1957), for the proposition that a
_State cannot exclude a person from the practice
of law for reasons that contravene the Due Process clause.
PRODUCT LIABILITY:
Mc Kinneys CPLR 1602 NO 10 states " not apply to
any person held in a product liability action where
the manufacturer of the product is not a party to
the action and the claimant establishes by a
preponderance of the evidence that jurisdiction
over the manufacturer could not with due diligence
be obtained and that if the manufacturer were a
party the action , liability, to the extent of the
equitable share of the manufacturer".
Ms. Romain has demonstrated on the caption
the parties involved, the manufacturer, the contractor
and the end users. The Constitution and Federal laws
should not be determined as defective product when
they are used as the manufacturer instruction.
EXCEPTIONAL CIRCUMSTANCES WHICH ARE
EXTRAORDINARY:
Rule 36 of the Supreme Court of the United States
hand book : The custody of prisoners in habeas corpus
proceeding. The Supreme court document that the
transferring of custody to another is forbidden unless
authorized by a Justice or Judge of the court.
Ms. Romain continues to be harmed in custody by
an unconstitutional policy. State actors and "big tech"
have set bail that is unconstitutional an 8'
Amendment deprivation.

9

Inappropriate to ask not to petition the Government
for redress of grievances (1st Amendment) deprivation.
Theresa is a person in custody for no bailable offense.
Petitioner respectfully ask that the court consider all
petition before it and for good cause shown. And if
for any reason that cannot be entertained accept a
couple of the writ as discretion may permit for review.
CONCLUSION:
Ms Romain case is one of extraordinary
circumstances requiring a rehearing. Charles Alan
Wright et al Federal Practice Guide and Procedure
Vol. 16AA 39 86 PP 597-98) 4th Ed. West 2008)
(explaining that this power exists though only
use in extraordinary circumstances), Gordeck
382 U. S. 25, Ohio Power 353 U. S. at 99, Straight
v. Wainwright 476 U. S. 1132, 1135 (1986), U. S.
v. Johnson 457 U. S. 537 ,555- 56 (1982).
In Weed v. Bilbrey 400 U. S. 982 984 (1970) Douglas
& Black JJ Dissenting (The fact of the matter are
even more compelling than those in [Gordeck]
All [this Litigant] ask is that the court apply the
law in her case that was applied in the other
following hers. That's all Theresa Romain ask for
that she be treated as others in similar circumstances.
Fed RCVP 60 (b) providing for reopening judgment in
certain circumstances.

10

Wherefore petitioner pray that the U. S. Supreme
Court holds dearly the issues that brought her to
the Supreme Court, reconsider review and rehearing,
and grant petitioner justice.

Respectfully Submitt

Theresa Romain. (Petitioner))

Date: March 22th 2021

11

